V

No.:

llfMIlBflt
IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U S
FILED

AUG 0 2 2021
OFFICE OF THE Cl FRtr

EMMANUEL PEREZ, PETITIONER
vs.
STATE OF NEBRASKA - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
NEBRASKA COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Darik J. Von Loh #21886
Hernandez Frantz, Von Loh
601 Calvert Street, Suite A
Lincoln, NE 68502
(402) 853-6913

— >

QUESTION PRESENTED
There is a split between the United States Circuit Courts regarding whether
the “inextricably intertwined” standard is a proper exception to Fed.R.Evid. 404(b),
or whether a hearing should be held under Rule 404(b) regarding such evidence.

11

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
-State v. Perez, Lancaster County District Court, Lincoln, Nebraska, Case
No.: CR 18-1176.
-State v. Perez, Nebraska Court of Appeals, Lincoln, Nebraska, Case No.: A
19-1189

m

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

14

INDEX TO APPENDICES
APPENDIX A - Nebraska Court of Appeals Opinion

16

APPENDIX B - Order Denying Petition for Further Review

38

IV

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

State v. Kelly,.............................
20 Neb. App. 871 (2013)

2, 3, 10, 11

State v. Robinson...............
271 Neb. 698 (2006)

3, 11

United States v. Bartunek...........
969 F.3d 860 (8th Cir. 2020)

4, 13

United States v. Bowie......................
232 F.3d 923 (D.C. Cir. 2000)

5, 14

United States v. Bush. . . ..............
844 F.3d 189 (4th Cir. 2019)

4, 13

United States v. Byfield..................
947 F.2d 954 (10th Cir. 1993)

5, 13

United States v. English..................
785 F.3d 1052 (6th Cir. 2015)

4, 13

United States v. Flores..................
640 F.3d 638 (5th Cir. 2011)

4, 13

United States u. Green..................
617 F.3d 233 (3rd Cir. 2010)

3, 12

United States v. Gorman..............
613 F.3d 711 (7th Cir. 2010)

3, 12

United States v. Loftis....................
843 F.3d 1173 (9th Cir. 2016)

4, 13

United States v. Marrero.............
651 F.3d 453 (6th Cir. 2011)

4, 13

United States v. Nerey....................
877 F.3d 956 (11th Cir. 2017)

5, 13

v

United States v. Rodriguez-Estrada
- Cir—1989)

3, 12

United States v. Romero-Padilla. .
583 F.3d 126 (2nd Cir. 2009)

4, 13

STATUTES AND RULES
Neb. Rev. Stat. § 27-404
Neb. Rev. Stat. § 27-403

7, 12, 14
. . 7, 14

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
The opinion of the highest state court to review the merits is the Nebraska
Court of Appeals and appears at Appendix A to the petition and is unpublished.
The denial of the Petition for Further Review to the Nebraska Supreme
Court appears at Appendix B to the petition and is unpublished.
JURISDICTION
The date on which the highest court decided my case was December 2, 2020.
A copy of that decision appears in Appendix A.
A timely Petition for Further Review to the Nebraska Supreme Court was
thereafter denied on March 9, 2021 in A 19-1189. Said denial appears in Appendix
B.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
1.

Evidence of other crimes, wrongs, or acts is not admissible to prove the

character of a person in order to show that he or she acted in conformity therewith.
It may, however, be admissible for other purposes, such as proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, or absence of mistake or
accident. Neb. Rev. Stat. § 27-404(2)
2.

“Inextricably intertwined” rule includes evidence that forms part of the

factual setting of the crime, or evidence that is so blended or connected to the
charged crime that forms part of the factual setting of the crime, or evidence that is
so blended or connected to the charged crime that proof of the charged crime will
necessarily require proof of the other crimes or bad acts, or if the other crimes or
bad acts are necessary for the prosecution to present a coherent picture of the
charged crime. State v. Kelly, 20 Neb. App. 871, 881 (2013)
3.

Where evidence of other crimes is “so blended or connected, with the one[s] on

trial [so] that proof of one incidentally involves the other [s]; or explains the
circumstances; or tends logically to prove any element of the crime charged,” it is
admissible as an integral part of the immediate context of the crime charged. When
the other crimes evidence is so integrated, it is not extrinsic and therefore not
governed by [r]ule 404 .... As such, prior conduct that forms the factual setting of
the crime is not rendered inadmissible for rule 404. . . . The State is entitled to
present a coherent picture of the facts of the crime charged, and evidence of prior
2

r
conduct that forms an integral part of the crime charged is not rendered
inadmissible under rule 404 merely because the acts are criminal in their own
right, but have not been charged. ... A court does not err in finding rule 404
inapplicable and in accepting prior conduct evidence where the prior conduct
evidence is so closely intertwined with the charged crime that the evidence
completes the story or provides a total picture of the charged crime. . . . State v.
Kelly, 20 Neb. App. 871, 881-2 (2013) quoting, State v. Robinson, 271 Neb. 698, 714
(2006).
4.

If uncharged misconduct directly provides the charged offense, it is not

evidence of some “other” crime. Second, “uncharged acts performed
contemporaneously with the charged crime may be termed intrinsic if they facilitate
the commission of the charged crime. United States v. Green, 617 F.3d 233, 249 (3rd
Cir. 2010)
5.

If evidence is not direct evidence of the crime itself, it is usually propensity

evidence simply disguised as inextricable intertwinement evidence, and is therefore
improper, at least if not admitted under the constraints of Rule 404(b). United
States v. Gorman, 613 F.3d 711, 718 (7th Cir. 2010)
6.

Extrinsic offense evidence which is “inextricably intertwined” with the crimes

charged is often admissible under Rule 404(b). United States v. Rodriguez-Estrada,
877 F.2d 153, 156 (1st Cir. 1989).

3

F
7.

Evidence of other crimes corroborated and proved participation in the

conspiracy because it was “inextricably intertwined” with the charged offense.
United States v. Romero-Padilla, 583 F.3d 126, 128 (2nd Cir. 2009)
8.

Other criminal acts are “intrinsic when they are inextricably intertwined or

both acts are part of a single criminal episode. United States v. Bush, 944 F.3d
1989, 196 (4th Cir. 2019)
9.

The search is “inextricably intertwined” with other evidence used to prove the

crime of aiding and abetting possession with intent to distribute. United States u.
Flores, 640 F.3d 638, 643 (5th Cir. 2011)
10.

Where the challenged evidence is “intrinsic” to or “inextricably intertwined”

with evidence of the crime charged, Rule 404(b) is not applicable. United States v.
English, 785 F.3d 1052, 1059 (6th Cir. 2015), quoting, United States v. Marrero, 651
F.3d 453, 471 (6th Cir. 2011).
11.

Prohibition on evidence does not extend to evidence that is “intrinsic” to the

charged offense, including evidence that is “inextricably intertwined” with the
alleged crime. United States u. Bartunek, 969 F.3d 860, 862 (8th Cir. 2020)
12.

Evidence should not be considered “other crimes” or “other act” evidence

within the meaning of Rule 404(b) if “the evidence concerning the ‘other’ act and the
evidence concerning the crime charged are inextricably intertwined.” United States
v. Loftis, 843 F.3d 1173, 1177 (9th Cir. 2016)

4

13.

An act is no extrinsic if it is “inextricably intertwined” with the charged

crime. United States v. Byfield, 947 F.2d 954, 955 (10th Cir. 1993)
14.

Evidence meets this exception when it is...inextricably intertwined with the

evidence regafding the charged offense. United States v. Nerey, 877 F.3d 956, 974
(11th Cir. 2017)
15.

When evidence is “inextricably intertwined” with the charged crime, courts

typically treat it as the same crime. United States v. Bowie, 232 F.3d 923, 927 (D.C.
Cir. 2000)
STATEMENT OF THE CASE
This is an appeal of a jury trial in which Emmanuel Perez was found guilty
on a two-count information.
On August 13, 2018, Emmanuel Perez was arrested and charged with one
count of sexual assault of a child in the first degree. On May 28, 2019, the district
court heard a motion to suppress and Jackson v. Denno hearing which were
overruled. On September 6 and 9, 2019, the district court attempted to accept a
plea from Emmanuel. On September 19, 2019, Emmanuel requested a continuance
to obtain new counsel, and the matter was continued to October 4, 2019. The
district court overruled Emmanuel’s request for continuance to obtain counsel, the
State was given leave to file an amended information which added Count II, incest
under 18 years of age. On October 8, 2019, Emmanuel was arraigned, preliminary
hearing was held on the amended information, and the district court found there
was probable cause to bind the amended information.
5

f

\

.

On October 16, 2019, trial began, and On October 23, 2019, the case was
submitted to the jury for decision. After two hours and fourteen minutes of
deliberation, the jury returned verdict of guilty on Counts I and II of the amended
information.
On December 3, 2019, Emmanuel was sentenced to imprisonment on Count I
for a period of not less than 40 years, but no more than 50 years, and for Count II
for a period of not less than seven years, but no more than 12 years. Both sentences
were to run concurrently.
On December 18, 2019, the instant case was timely appealed to the Nebraska
Court of Appeals at Case No.: A 19-1189. On December 22, 2020, the Nebraska
Court of Appeals affirmed the trial court’s conviction. On March 9, 2021, the
Nebraska Supreme Court denied further review.
REASONS FOR GRANTING THE PETITION
Pertinent Case Facts:
Prior to trial on October 4, 2019, hearing was held in the Lancaster County
District Court of Nebraska in which several pretrial motions were before the Court
for disposition. These included the State’s Notice of Intent to Offer Evidence of
Other Crimes, Wrongs, or Acts of Defendant. In that motion, the State specifically
sought to offer evidence regarding alleged sexual abuse which occurred in the State
of Texas while the alleged victim, J.R., was 5 to 10 years old. The State argued the
alleged Texas abuse was “inextricably intertwined” with the alleged abuse in
Nebraska. Emmanuel’s attorneys argued the information was not “inextricably
6

intertwined” and should fall under Neb. Rev. Stat. § 27-404(2),1 and there should be
a hearing conducting regarding the admissibility of said alleged abuse and its
prejudice to Emmanuel under Neb. Rev. Stat. § 27-403. On October 17, 2019, the
district court ruled the evidence of prior bad acts occuring in Texas was
“inextricably intertwined” and sustained the State’s motion.
Testimony began October 17, 2019, and the States’ first witness was J.R. On
direct the prosecution began with asking J.R. about her life in Texas years before
the events in Lancaster County, Nebraska, had taken place. J.R. was asked about
where she lived while in Texas, which she responded with, “...we lived at
Emmanuel’s mom’s house, then we moved into an apartment complex, we ended up
moving to my great-great-grandmother’s house.” J.R. testified they lived in theses
places on and off, and there was some back and forth between these residences. J.R.
described the living situation in the apartment complex as living in a one bedroom
apartment, but the sleeping arrangement was everyone in the living room with the
parents on the pullout couch and the kinds on a blow-up bed. The prosecution then

Neb. Rev. Stat. § 27-404(2) essentially mirrors the Fed. R. Evid. 404(b):
Character evidence; not admissible to prove conduct; exceptions; evidence of
other crimes, wrongs, or acts; standard of proof; sexual assault; provisions
applicable
(2) Evidence of other crimes, wrongs, or acts is not admissible to prove the
character of a person in order to show that he or she acted in conformity therewith.
It may, however, be admissible for other purposes, such as proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, or absence of mistake
or accident.
7

questioned J.R. about Edna Perez’s work schedule while they were living in Texas,
J.R. stated she worked two jobs which meant she was not home much, leaving
Emmanuel home to take care of the children.
After setting the early scene, the prosecution moved to asking J.R. about the
sexual assaults. J.R. claimed it started out as “child’s play.” When she wouldn’t be
a good girl it was a way of making her behave. J.R. claimed that Emmanuel would
touch her breasts. J.R. also stated that Emmanuel attempted to touch her vagina,
but she would not allow that to happen. She went on to say that Emmanuel’s
response would then be to guilt trip her for not allowing him to touch her, and it
would get to the point that she felt so bad she would feel as if she did something
wrong. To make up for this the accusation, Emmanuel would ask for a hug from
J.R. in which she was completely nude while Emmanuel was either fully dressed or
shirtless in shorts. J.R. testified these naked hugs would happen at all of their
living locations while in Texas, and she alleged Emmanuel found any reason to get
these hugs from her, and he would make excuses, i.e. bringing her a towel after she
got out of the shower. When the prosecution asked J.R. if Emmanuel had ever
shown her pornography, she stated that he would ask her to come to his room while
he was watching it on his Xbox or would send her links via a message through his
phone. The videos J.R. claims that she was shown tended to be of the
stepfather/stepdaughter genre.
During this line of questioning the prosecution asked J.R. if anything more
happened than just the naked hugs while they were in Texas. J.R. stated that if she
8

misbehaved, Emmanuel would give her three choices (1) a naked hug, (2) a blow job
or (3) have sex. J.R. stated that she would try not to do either of the last two options
and mainly stick with the naked hugs, however, there were be times Emmanuel
would only give her the options of the last two. In those cases J.R. stated she would
go with the blow job. J.R. was then asked if this happened at every location they
lived at while in Texas, she said yes. J.R. was then asked to describe Emmanuel’s
penis, she stated it was uncircumcised and small, and that it needed to be cleaned
multiple times or it would smell like rotten eggs and fish. J.R. was then asked when
and where these blow jobs occurred. She first mention when they were at
Emmanuel’s mother’s house which J.R. described as a trailer home. She said the
blow jobs would happen in either the master bedroom, the living room or the small
bedroom. J.R. was asked by the prosecution to describe a time a blow job happened
in each location, and J.R. claimed that she performed oral sex on Emmanuel until
he would ejaculate, and then she would run to the nearest sink to spit out his
semen, or spit it out immediately onto herself. The follow up question was who was
home at the time of these incidents, and J.R. stated that the incident that occurred
in the small bedroom when all three of her brothers were in the living room, while
her mom was working, and her grandma was grocery shopping. According to J.R.,
during the incident in the living room, everyone was sleeping, and in the master
bedroom nobody else was home.
After talking about Emmanuel’s mother’s house, the prosecution then moved
on to ask about J.R.’s great-great-grandmother’s house. J.R. was again asked if she
9

I
was required to give Emmanuel blow jobs at this location. J.R. claimed that she had
to give Emmanuel oral sex in a small bedroom and in a back living room where
again there were individuals home at the time, and that she had to run to the
nearest sink to spit out Emmanuel’s semen and brush her teeth. After a short
recess, J.R. returned to the witness stand and she was asked about events that
occurred in the small one bedroom apartment where everyone slept in the living
room. J.R. made the accusation that multiple times while they lived in that
apartment she would be required to give Emmanuel a blow job while her brothers
would be sleeping in the same room. J.R. also stated that Emmanuel had at one
point pushed her head down farther than she had been used to, and at first, was
unaware she could breathe through her nose so she was gasping for breath. All
events up to this point as previously stated occurred outside the jurisdiction of
Lancaster County, Nebraska, in the State of Texas.
Discussion:
The State cited State v. Kelly, 20 Neb. App. 871 (2013), in support of its
argument the facts of the alleged Texas abuse was “inextricably intertwined.” In
Kelly, this Court stated it’s “inextricably intertwined” rule:
Includes evidence that forms part of the factual setting of the crime, or
evidence that is so blended or connected to the charged crime that
forms part of the factual setting of the crime, or evidence that is so
blended or connected to the charged crime that proof of the charged
crime will necessarily require proof of the other crimes or bad acts, or if
the other crimes or bad acts are necessary for the prosecution to
present a coherent picture of the charged crime.
Id. at 881.
10

Where evidence of other crimes is “so blended or connected, with the
nnnfs]-ond;riaI_[so]'th'a'L~proohofone incidentally involvesThlTotlierf's] ;
or explains the circumstances; or tends logically to prove any element
of the crime charged,” it is admissible as an integral part of the
immediate context of the crime charged. When the other crimes
evidence is so integrated, it is not extrinsic and therefore not governed
by [r]ule 404 .... As such, prior conduct that forms the factual setting
of the crime is not rendered inadmissible for rule 404. . . . The State is
entitled to present a coherent picture of the facts of the crime charged,
and evidence of prior conduct that forms an integral part of the crime
charged is not rendered inadmissible under rule 404 merely because
the acts are criminal in their own right, but have not been charged. . . .
A court does not err in finding rule 404 inapplicable and in accepting
prior conduct evidence where the prior conduct evidence is so closely
intertwined with the charged crime that the evidence completes the
story or provides a total picture of the charged crime. . . .
Id. At 881-2, quoting State v. Robinson, 271 Neb. 698, 714 (2006).
In the case at bar, the testimony elicited through J.R. of the alleged sexual
abuse in the State of Texas when she was 5 to 10 years of age does not meet the
“inextricably intertwined” test as articulated in Kelly and Robinson. While the
testimony may create a comprehensive story for the State’s case, the acts charged
are not so related and blended or connected, “with the one[s] on trial [so] that proof
of one incidentally involves the other[s]; or explains the circumstances; or tends
logically to prove any element of the crime charged.” Id. The so-called abuse
occurring in the State of Texas includes alleged touching and alleged acts of sexual
intercourse. There was no connection in time, place, or circumstances with the
abuse alleged in Nebraska, and the proof of the alleged Texas abuse does not
“incidentally involve” proof of the crimes alleged in Nebraska. (See, T25)

11

\

.

Two United States Circuit Courts have done away with the “inextricably
intertwined” theory. In United States v. Green, 617 F.3d 233, 249 (3rd Cir. 2010)
and United States v. Gorman, 613 F.3d 711, 718 (7th Cir. 2010), the Third and
Seventh Circuit Courts reject the “inextricably intertwined” test:
If uncharged misconduct directly proves the charged offense, it is not
evidence of some “other” crime. Second, “uncharged acts performed
contemporaneously with the charged crime may be termed intrinsic if
they facilitate the commission of the charged crime.”
Green at 249.
If evidence is not direct evidence of the crime itself, it is usually
propensity evidence simply disguised as inextricable intertwinement
evidence, and is therefore improper, at least if not admitted under the
constraints of Rule 404(b).
Gorman at 718. The Green and Gorman courts find any other evidence must be
subject to Neb. Rev. Stat. § 27-404(2). The basic gist of the Green and Gorman
courts is the exceptions in Neb. Rev. Stat. § 27-404(2) are adequate to allow
exceptions for evidence of prior bad acts; however, the “inextricably intertwined”
standard is not necessary since Rule 404(2) carves out enough exceptions for such
evidence, if it is related, that should allow its inclusion into evidence. What the
Third and Seventh Circuit Courts have done is to ensure a criminal defendant is
given the hearing required under Neb. Rev. Stat. § 404(2), and the protections
afforded by Neb. Rev. Stat. § 27-403. The Third and Seventh Circuits are in
opposition with the remaining Circuit Courts as to handling of such evidence. See,
United Sates v. Rodriguez-Estrada, 877 F.2d 153, 156 (First Circuit 1989) (extrinsic
offense evidence which is “inextricably intertwined” with the crimes charged is often
12

admissible under Rule 404(b)); United States v. Romero-Padilla, 583 F.3d 126, 128
(2nd Circuit 2009) (evidence of other crimes corroborated and proved participation in
the conspiracy because it was “inextricably interetwined” with the charged offense);
United States u. Bush, 944 F.3d 189, 196 (4th Circuit 2019) (other criminal acts are
“intrinsic when they are inextricably intertwined or both acts are part of a single
criminal episode); United States u. Flores, 640 F.3d 638, 643 (5th Cir. 2011) (the
search is “inextricably intertwined” with other evidence used to prove the crime of
aiding and abetting possession with intent to distribute); United States v. English,
785 F.3d 1052, 1059 (6th Cir. 2015) (where the challenged evidence is “intrinsic” to
or “inextricably intertwined” with evidence of the crime charged, Rule 404(b) is not
applicable) (quoting, United States v. Marrero, 651 F.3d 453, 471 (6th Cir. 2011));
United States v. Bartunek, 969 F.3d 860, 862 (8th Cir. 2020) (prohibition on evidence
does not extend to evidence that is “intrisic” to the charged offense, including
evidence that is “inextricably intertwined” with the alleged crime); United States v.
Loftis, 843 F.3d 1173, 1177 (9th Cir. 2016) (evidence should not be considered “other
crimes” or “other act” evidence within the meaning of Rule 404(b) if “the evidence
concerning the ‘other’ act and the evidence concerning the crime charged are
inextricably intertwined”); United States u. Byfield, 947 F.2d 954, 955 (10th Cir.
1993) (an act is not extrinsic if it is “inextricably intertwined” with the charged
crime); United States v. Nerey, 877 F.3d 956, 974 (11th Cir. 2017) (evidence meets
this exception when it is...inextricably intertwined with the evidence regarding the

13

V-

charged offense); United States v. Bowie, 232 F.3d 923, 927 (D.C. Cir. 2000) (when
evidence is “inextricably intertwined” with the charged crime, courts typically treat
it as the same crime).
Since the evidence of the alleged abuse in Texas does not meet these tenets,
including “inextricably intertwined” and those set out by the 3rd and 7th Circuit
Courts, it should be subject to review and hearing under Neb. Rev. Stat. §§ 27404(2) and 27-403. The alleged acts in Texas were completely different acts, were
committed in another jurisdiction, were not related in time, and were not proof of
the alleged crimes or alleged acts occurring in Nebraska the subject of this case. As
such, the district court erred in finding the evidence “inextricably intertwined” and
it should have overruled the State’s motion to proffer the alleged Texas acts and
grant a hearing under Neb. Rev. Stat. § 27-404(2).
CONCLUSION
For the above-stated reasons, the Petitioner requests you find the
information of Texas acts were not admissible, and for Petitioner’s case to be
remanded for a new trial.
Respectfully submitted,

14

V
Emmanuel Perez, Petitioner
By:
Darik J. Von Lohp21886
Hernandez Frantz, Von Loh
601 Calvert Street, Suite A
Lincoln, NE 68502
(402) 853-6913
darik@hfvllaw.com
Attorney for Petitioner

15

